OFFICE OF INSPECTOR GENERAL
for the Millennium Challenge Corporation



AUDIT OF THE MILLENNIUM
CHALLENGE CORPORATION’S
HEALTH SECTOR PROJECT IN
LESOTHO
AUDIT REPORT NO. M-000-11-001-P
January 25, 2011




WASHINGTON, DC
 




Office of Inspector General 
  for the Millennium Challenge Corporation
          
January 25, 2011

Mr. Daniel Yohannes
Chief Executive Officer
Millennium Challenge Corporation
875 15th Street, NW
Washington, DC 20005

Dear Mr. Yohannes:

This letter transmits the Office of Inspector General’s final report on the Audit of the Millennium
Challenge Corporation’s Health Sector Project in Lesotho. In finalizing the report, we
considered your written comments on our draft report and included those comments in their
entirety in appendix II of this report.

The report contains 11 recommendations to reduce the costs of the Health Sector Project and to
improve project implementation. We consider that management decisions have been reached
on Recommendations 3, 5, 6, 7, and 11 and final action taken on Recommendations 1, 2, 4, 8,
9, and 10. Final action will not be reached on Recommendations 3, 5, 6, 7, and 11 until MCC
provides additional documentation.

I appreciate the cooperation and courtesy extended to my staff during this audit.

Sincerely,




Alvin A. Brown /s/
Assistant Inspector General
Millennium Challenge Corporation

Millennium Challenge Corporation
1401 H Street NW, Suite 770
Washington, DC 20005
www.usaid.gov/oig
CONTENTS
Summary of Results ....................................................................................................... 1

Audit Findings ................................................................................................................ 5

     MCC Did Not Sufficiently
     Evaluate Health Centers ............................................................................................. 5

     MCC Conditions Precedent
     Did Not Mitigate Risks in Health Center
     Management Decentralization .................................................................................... 7

     Additional Funding Needed To
     Complete Health Center Project ................................................................................. 8

     Challenges To Overseeing
     Project Work................................................................................................................ 9

     Not All Health Centers Were Providing
     All Essential Health Services .................................................................................... 10

     Indicators Overstate Expected Results ..................................................................... 11

     Contractor for Health System
     Strengthening Was Underperforming........................................................................ 13

     MCC Did Not Adequately Apprise
     Stakeholders of Project Status .................................................................................. 13

Evaluation of Management Comments ....................................................................... 15

Appendix I – Scope and Methodology ........................................................................ 18

Appendix II – Management Comments ....................................................................... 20
SUMMARY OF RESULTS
About 24 percent of adults in Lesotho are HIV-positive, giving the country the third
highest prevalence rate in the world. To mitigate the negative economic effects of
HIV/AIDS and tuberculosis by strengthening the country’s health care system, the
Millennium Challenge Corporation 1 (MCC) designed a $122 million Health Sector Project
as part of its compact with Lesotho. 2 The project supports the Government’s efforts to
significantly increase access to antiretroviral therapy and other essential health services
by providing a sustainable delivery platform—that is, health care infrastructure.

The primary activities of the Health Sector Project include rehabilitating health care
infrastructure and strengthening the health care system. MCC funding will support the
Government’s efforts by providing:

    •   Renovated health centers

    •   Hospital outpatient departments to support the delivery of antiretroviral therapy

    •   A central laboratory

    •   A central blood collection facility

    •   Dormitories for the National Health Training College

    •   Health systems strengthening activities, including medical waste management
        and decentralization of health service delivery

The compact entered into force 3 on September 17, 2008. The compact is being
implemented by the Millennium Challenge Account-Lesotho (MCA-Lesotho). 4 As of the
third quarter 2010, MCA-Lesotho had committed $19 million for the Health Sector
Project.

The objective of the audit was to determine whether MCC’s Health Sector Project was
structured 5 to achieve its objective of increasing access to antiretroviral therapy and
essential health services by providing a sustainable delivery platform?

The audit found that MCC’s Health Sector Project was structured to contribute to

1
  Established in 2004, MCC is based on the principle that aid is most effective when it reinforces
good governance, economic freedom, and investments in people. MCC’s mission is to reduce
global poverty through the promotion of sustainable economic growth.
2
  A compact is a multiyear agreement to provide assistance to an eligible country to achieve
shared development objectives. On July 23, 2007, MCC signed a 5-year, $363 million compact
with Lesotho.
3
  The date of entry into force is the point in time when a compact comes into full force and takes
effect and its term begins.
4
   The Millennium Challenge Account-Lesotho is the host government entity charged with
implementing some or all of the terms of the compact.
5
  OIG reviewed the structuring of the Health Sector Project primarily for duplications and gaps in
the project and for sustainability of the MCC investment.


                                                                                                1
achieving the compact objective which is to increase access to antiretroviral therapy and
essential health services. The project will primarily improve the infrastructure of the
health care system to create a platform from which health care can be delivered.
Nevertheless, the audit identified certain risks that could impact the successful
implementation of the project activities and the achievement of the compact goal.

MCC’s Health Sector Project does not provide the antiretroviral therapy or essential
health services; this is the responsibility of the Government of Lesotho and others. MCC
recognized the important role of others in the success of its project and established
specific project activities and measures in an effort to mitigate the risks of (1) inadequate
health center management, (2) incomplete delivery of all essential health services, and
(3) insufficient health care staffing. On these mitigation measures, the audit found the
following concerns:

Health Center Management – MCC project activities and measures focusing upon
improving decentralized management of the health centers may not achieve their
objectives. Without strong decentralized health center management, the ability of the
health centers to deliver services and drugs may be compromised (pages 7 and 13).

Delivery of Essential Health Services – To receive MCC funding, the Government of
Lesotho was required to update its agreements with the health center operators to
ensure that they would provide antiretroviral therapy and essential health services. The
audit found that not all health centers were providing all essential health services, which
is detrimental to the health of the people of Lesotho and in conflict with MCC’s compact
objective (page 10).

Health Care Staffing – Lesotho has a significant shortage of health care professionals,
negatively affecting the delivery of health care services. While MCC’s Health Sector
Project included dormitories at the National Health Training College to provide increased
and quality housing to attract more students, the audit found that the project also funded
the renovations of underused health centers or those that provide duplicate services of
nearby health centers. Had the health centers been decommissioned, staffing could
have been reallocated to other centers helping to alleviate staffing shortages (page 5).

The audit also found other Health Sector Project related-risks, including (1) funding
shortages for the health center renovations, (2) difficulties in overseeing the project
works given the large number of health centers being renovated and their locations,
(3) indicators and projected number of beneficiaries that overstate the direct results of
the project, and (4) poor communication during project implementation with stakeholders
and donors.

Specifically, the audit team found that:

    •   MCC did not sufficiently evaluate the need for each of the health centers during
        the compact development process (page 5).

    •   MCC did not design outcome-based conditions precedent 6 to mitigate risk in
        health center management decentralization (page 7).

6
  Conditions precedent are MCC requirements that typically have to be met before MCC funding
is disbursed.


                                                                                           2
    •   MCC did not accurately identify required funding for the health center renovations
        during due diligence 7 (page 8).

    •   MCC-Lesotho and MCA-Lesotho will not be able to directly oversee the
        renovations of all health centers (page 9).

    •   MCC did not verify compliance with a condition precedent requiring that all health
        centers agree to provide all essential health services in order to receive MCC
        funding (page 10).

    •   MCC indicators overstate the direct results of the project and the number of
        project beneficiaries (page 11).

    •   MCA-Lesotho’s contractor for health systems strengthening activity was not
        performing as required (page 13).

    •   MCC did not apprise stakeholders of project status (page 13).

The report recommends that MCC:

1. Eliminate from the project the nine health centers recommended for
   decommissioning during due diligence totaling an estimated $8 million unless MCC
   can substantiate their continued inclusion in the project (page 6).

2. Determine whether to renovate 20 health centers that did not meet the Health Center
   Rationalization Study retention criteria, and document the analysis and the decision
   (page 6).

3. Determine whether District Health Management Teams will be functional upon health
   center completion; document the assessment; and implement additional mitigation
   measures, if necessary, to manage the risk to sustainability (page 8).

4. Develop a policy requiring conditions precedent to focus on outcomes, where
   appropriate, rather than prescribing specific activities (page 8).

5. Ensure that the Government of Lesotho allocates sufficient amounts in its annual
   budget to cover the cost of the health center renovations, and documents its review
   (page 9).

6. Develop and implement a strategy to coordinate oversight during renovation of all
   health centers in the project (page 10).

7. Review health center policies and practices to determine whether they comply with
   the memorandum of understanding establishing that centers must provide all
   essential health services, and document its review. If health centers are not

7
  Due diligence is a process for determining whether an eligible country’s proposal meets MCC’s
criteria for funding. Due diligence includes assessing all aspects of the proposal, including
technical feasibility, consistency with the country’s poverty reduction strategy, and the effects on
economic growth.


                                                                                                  3
   complying, MCC needs to take appropriate action and document its rationale (page
   10).

8. Review and document the role of private sector providers in compact implementation
   and establish a written policy for compliance with service delivery requirements to
   receive MCC funding (page 11).

9. Revise its Health Sector Project monitoring and evaluation plan to properly attribute
   the comprehensive efforts being provided by other donors (page 12).

10. Review its strategy for health systems strengthening and determine and document
    whether it will achieve its intended purpose. If it will not achieve its purpose, MCC
    needs to take appropriate action (page 13).

11. Verify that Millennium Challenge Account-Lesotho develops a comprehensive,
    documented communications strategy to increase the transparency of its project
    activities and provide adequate and timely information to other donors and
    stakeholders for use in coordinating efforts (page 14).

Detailed findings appear in the following section. Appendix I presents the audit scope
and methodology. Appendix II presents MCC’s management comments. MCC agreed
with nine recommendations, agreed in part with one recommendation, and disagreed
with one recommendation.           Management decisions have been reached on
Recommendations 3, 5, 6, 7, and 11. Final action has been taken on Recommendations
1, 2, 4, 8, 9, and 10, but MCC will need to provide additional documentation before final
actions can be taken on Recommendations 3, 5, 6, 7, and 11.




                                                                                       4
AUDIT FINDINGS
MCC Did Not Sufficiently
Evaluate Health Centers
MCC did not sufficiently evaluate the need for each of the health centers during due
diligence. MCC reviewed a published study entitled Health Center Rationalization Study
in its due diligence effort. 8 The study examined health centers in Lesotho to determine
whether they were strategically located, adequately staffed, and set up to provide the
services prescribed by the Ministry of Health and Social Welfare. The study found
excess capacity in the health center system and recommended closing certain health
centers. 9 The audit compared the study’s recommendations with MCC’s decisions
about structuring the project and noted the differences described below.

The study recommended that 15 health centers be decommissioned. However, the
audit found that 9 of the 15 health centers recommended for decommissioning (shown
below) are to be renovated as part of the MCC project, at an estimated cost of $8 million.
When asked about including health centers recommended for decommissioning, an
MCC official responded that those centers should not be included in MCC’s project.

                    Health Centers Recommended for Decommissioning
                     That Were Included in MCC’s Health Sector Project

                      Health Center               Included in MCC’s Project?
              1.    Koro-Koro                                  No
              2.    Thaba Bosiu 10                             Yes
              3.    Mount Carmel                               No
              4.    St. Leonard                                Yes
              5.    Bethel                                     No
              6.    Mafa                                       No
              7.    St. Peters (Mokhotlong)                    No
              8.    St. Magdalena                              Yes
              9.    Louis Gerard                               No
              10.   Pontmain                                   Yes
              11.   Mahobong Clinic                            Yes
              12.   Peka                                       Yes
              13.   St. Monica’s                               Yes
              14.   Holy Family                                Yes
              15.   Good Shepherd                              Yes

The Health Center Rationalization Study found that decommissioning the Domiciliary
Health Center would have virtually no impact on coverage because of the health center’s

8
  Medical Care Development International, Health Center Rationalization Study, September 2002.
9
  OIG did not independently evaluate the study’s methodology or results.
10
   In addition, the OIG audit team visited two health centers near Maseru, St. Leo and Thaba Bosiu,
which were part of the study analysis. Thaba Bosiu staff reported that because the center lacked
necessary medications, it had not had any patients for more than 2 months and patients were using
nearby health centers instead. The Thaba Bosiu health center had been renovated recently by the
Red Cross, but is still scheduled to be renovated under the MCC Health Sector Project.


                                                                                                 5
location in a large urban area with numerous alternative service providers located
nearby. Nonetheless, the Domiciliary Health Center was being rebuilt as part of the
MCC project.

The Health Center Rationalization Study identified 20 additional health centers that did
not meet the criteria for retaining them as ongoing health centers, but the study did not
recommend decommissioning them. However, retaining health centers when there is
doubt as to their necessity calls into question MCC’s due diligence on the health centers.

MCC Sector Guidelines for Countries Proposing Health Programs establishes
expectations for specific health sector activities that would be considered by MCC for
funding. These activities include those that would improve the cost-effectiveness of a
country’s health system, such as the rationalization of the health care infrastructure. In
addition, MCC Project Development Guidelines requires a clear justification for the
proposed activities, including analysis of project activities, quantified wherever possible.
The justification for public funding should include a discussion of the chosen operation
being the least-cost alternative and of alternatives in terms of choice of project,
technology, design, construction, and location.

The due diligence process during compact development and compact implementation
focused on the infrastructure deficiencies of the health centers and not on rightsizing to
produce an efficient and effective health center system. OIG believes that further
integration of the study’s results in the compact development process by MCC, updated
with any changes in the health sector, would have been valuable in helping to assess
the health centers and to support MCC’s investment decision of nearly $73 million in the
health centers.

MCC cannot be assured that its project to renovate 138 health centers was necessary to
provide essential health service coverage to the people of Lesotho and is likely
expending more funds than necessary. Further, too many health centers compound
existing issues such as staffing shortages, drug distribution, and medical waste
management.      To address these deficiencies, this audit makes the following
recommendations:

   Recommendation 1.          We recommend that the Millennium Challenge
   Corporation eliminate from the project the nine health centers that Medical Care
   Development International recommended decommissioning, whose renovation
   will cost an estimated $8 million, or justify in writing their continued inclusion in
   the project.

   Recommendation 2.         We recommend that the Millennium Challenge
   Corporation follow-up on the Medical Care Development International report to
   determine whether the inclusion by default of the 20 health centers within the
   MCC project is warranted, and document its analysis and decision.




                                                                                           6
MCC Conditions Precedent Did Not
Mitigate Risk in Health Center
Management Decentralization

MCC established two conditions precedent that were to promote sustainability of its
investment in the health sector. These conditions precedent were to speed the
decentralization of health center management by strengthening the District Health
Management Teams. 11 These conditions precedent required:

     Government will provide evidence (1) that a broad-based working group is
     undertaking actions to further effective management of health services at the
     decentralized level, including roles and responsibilities of the working group and
     minutes of monthly meetings for at least 3 months; and (2) a plan, agreed cross-
     ministerially as appropriate, detailing the role and functions of the central ministries
     and the local government structures, with clear lines of authority, fiscal responsibility,
     logistical management and accountability for outcomes with regard to health
     services.

     In addition, the Government will have provided (1) the name and contact of the
     senior MoHSW official [Ministry of Health and Social Welfare] responsible for
     decentralization of health services to the district level, including liaison with MoLG
     [Ministry of Local Government] and MOF [Ministry of Finance]; (2) the roles of the
     MOHSW, the DHMT [District Health Management Team] and hospitals and health
     centers (including CHAL) [Christian Health Alliance of Lesotho] in providing each of
     the 11 essential health services, and (3) a proposal for developing a professional
     DHMT/community health staff, including a proposed outline for career progressions
     for decentralized district staff, with a plan for consultations with and buy-in from
     nurses, health center and DHMT, and health sector management to be undertaken.

Although the Government of Lesotho mostly achieved the MCC’s conditions precedent
for decentralization, the conditions precedent likely will not produce the intended results.
The audit team’s interviews with four international stakeholders expressed significant
concern with the Government of Lesotho’s ability to decentralize health services, noting
that decentralization has been a long-term initiative with few tangible results.
Stakeholders also identified significant problems with the District Health Management
Teams’ management capacity and the inadequate support being provided to the health
centers in terms of drug management, waste management, and facilities management.

MCC’s Guidance for Compact Eligible Countries requires that MCC assess a proposed
project’s sustainability and use the assessment to determine whether a project is a
worthwhile investment.

MCC designed measures to address identified risks to sustainability, but these
measures were not sufficiently robust to ensure that desired outcomes would be
achieved. MCC’s conditions precedent were prescriptive in nature rather than outcome-
oriented, requiring the establishment of working groups and plans rather than fully
functional and empowered District Health Management Teams as a prerequisite for

11
  The District Health Management Teams are responsible for planning, budgeting, managing,
and coordinating all district health services, including the health centers.


                                                                                             7
further funding. MCC stated that conditions precedents are only one tool that it has
available to manage project implementation. Further, MCC did not have a specific policy
for developing conditions precedent and, in particular, for conditions precedent that
would help ensure the sustainability of its investment.

Unmitigated sustainability risks remain in the Health Sector Project despite MCC’s
efforts to lessen them through the use of conditions precedent for the District Health
Management Teams. These risks jeopardize the long-term success of the project.
Without proper management of their operations, the health centers may be underused
and their benefits to the people of Lesotho unrealized. To address these deficiencies,
this audit makes the following recommendations:

   Recommendation 3.          We recommend that the Millennium Challenge
   Corporation reassess the decentralization efforts to determine whether the
   District Health Management Teams will be functional upon health center
   completion; document its efforts; and implement additional mitigation measures,
   if necessary, to manage the risk to sustainability.

   Recommendation 4.        We recommend that the Millennium Challenge
   Corporation develop a policy requiring conditions precedent to focus on
   outcomes, where appropriate, rather than prescribing specific activities.

Additional Funding Needed To
Complete Health Center Project
The compact between MCC and the Government of Lesotho designated $72.9 million for
renovating 138 health centers. However, during project implementation in 2009, MCA-
Lesotho and MCC determined that this level of funding was insufficient and that MCC
needed an additional $50 to $60 million to complete the health center renovations.

According to MCC’s Guidance for Compact Eligible Countries, due diligence should
include a review of the project design and costs. The due diligence guidelines require
an examination of the methodology for cost estimation and an evaluation of
contingencies.

Several factors contributed to MCC’s inability to fund the renovation of all the health
centers:

   •   The devaluation of the U.S. dollar caused a funding shortfall for some activities,
       according to MCA-Lesotho.

   •   MCC’s due diligence was inadequate. The firm MCC hired to do due diligence
       was not required to visit all of the health centers. The firm visited 26 of the 150
       health centers and conducted a needs assessment for all the centers based on
       these 26 site visits. MCC and MCA-Lesotho did not find this information to be
       sufficient or accurate. Therefore, MCA-Lesotho spent 3 months surveying and
       conducting a needs assessment for each center and reestimated the costs and
       confirmed the budget proposed for health centers was too low.

   •   Although MCC knew during due diligence of the Government of Lesotho’s future


                                                                                        8
       strategy of introducing free health care, MCC did not factor this change into the
       potential increased utilization rates of the health centers. Between the signing of
       the compact and entry into force, the Government of Lesotho introduced free
       access to health care. Because they expected health center use to increase in
       response, MCC and MCA-Lesotho increased the number of large health centers
       that had to be built and increased the cost of the project.

MCC is no longer able to fulfill its commitment to renovate 138 health centers.
Therefore, the Government of Lesotho has agreed to fund the shortage. However, an
official from the Government of Lesotho and other donors have noted that the
Government of Lesotho is experiencing its own funding shortages and has been unable
to fulfill some of its own commitments. The Government of Lesotho relies on revenues
from the Southern African Customs Union for a significant portion of its income; because
of decreased customs revenue, the Government of Lesotho has made major cutbacks in
its budget. Consequently, the Government of Lesotho may be unable to fully fund the
renovations of the health centers as agreed. To address these deficiencies, this audit
makes the following recommendation:

   Recommendation 5.           We recommend that the Millennium Challenge
   Corporation review the annual budget of the Government of Lesotho to
   determine whether sufficient amounts were budgeted to cover its share of the
   cost of the health center renovations and document its review.

Challenges To Overseeing
Project Work
MCC-Lesotho and MCA-Lesotho will not be able to oversee the renovations of all health
centers and thus will not be able to directly monitor the quality of work. MCA-Lesotho
engaged a supervisory engineer to oversee project implementation. Many of the health
centers are in rural areas where access is limited to helicopter. Further, other large
MCC infrastructure projects will also be going on simultaneously in Lesotho, putting an
additional strain on oversight capacity.

According to the MCC Oversight Model for infrastructure projects, MCA teams should
oversee the work of contractors to monitor the quality of works. During site visits, MCA
staff is responsible for verifying that MCC’s Environmental Guidelines, local laws, and
terms of the contract are being followed to safeguard the well-being of the community
and MCC’s investment.

The inability to oversee the renovations occurred because MCC decided to include
essentially all of the health centers in Lesotho, without taking into account the capacity of
MCC-Lesotho (in-country MCC officials) and MCA-Lesotho.                   According to the
Government of Lesotho’s country proposal, initially the Government of Lesotho selected
96 health centers for renovation, but MCC’s due diligence report recommended that all
health centers be given equal opportunity to receive assistance. As a result, MCC
decided to include all health centers based on parity and did not assess its own resource
capabilities and limitations.

Without MCC-Lesotho and MCA-Lesotho’s direct oversight of the renovations, project
completion and sustainability are at risk. Experience from other donors renovating


                                                                                           9
health centers in Lesotho has shown that inadequate oversight leads to cost overruns
and delays in completion. To address these deficiencies, this audit makes the following
recommendation:

   Recommendation 6.        We recommend that the Millennium Challenge
   Corporation develop and implement a strategy with the Millennium Challenge
   Corporation, Millennium Challenge Account-Lesotho, and the supervisory
   engineer to coordinate oversight during renovation of all health centers in the
   project.

Not All Health Centers Were
Providing All Essential Health
Services
The Health Center Rationalization Study reported that 46 health centers did not provide
family planning services. Thirty-nine of these health centers or 85 percent were included
as part of the MCC project. Staff at one health center visited by the OIG audit team said
that the center did not provide family planning or condom distribution.

The objective of MCC funding is to support the Government’s efforts to significantly
increase access to antiretroviral therapy and essential health services.                 The
Government’s Essential Health Services Package has five components, including control
of communicable diseases such as HIV/AIDS, and sexual and reproductive health,
including family planning. In addition, MCC established a conditions precedent that
required an updated agreement between the Ministry of Health and Social Welfare and a
health center operator regarding the improvements in the operator’s facilities. The
conditions precedent stated that an updated agreement should require the operator to
maintain minimum service levels for a specified period or return equipment or refund
MCA-Lesotho, unless otherwise agreed by MCC. The agreement will be documented in
an updated memorandum of understanding. Compliance with the conditions precedent
is required prior to initial disbursement for construction or rehabilitation for each project
activity.

Family planning services and condom distribution were not always provided because,
according to an OIG interview of a health center operator, faith-based policies did not
permit the operator to offer all essential health services.

MCC has a vested interest in ensuring that the health center operators comply with the
memorandum of understanding on the provision of essential health services by health
center operators. Otherwise, MCC’s objective of increasing access to essential health
services will not be met. To address these deficiencies, this audit makes the following
recommendations:

   Recommendation 7.          We recommend that the Millennium Challenge
   Corporation determine whether the health centers included in its project are
   complying with the memorandum of understanding establishing that all of the
   essential health services must be provided, and document its review. If centers
   are not complying, MCC needs to take appropriate action and document its
   rationale.



                                                                                          10
   Recommendation 8.          We recommend that the Millennium Challenge
   Corporation review and document the role of private sector providers in compact
   implementation and establish a written policy for compliance with service delivery
   requirements to receive Millennium Challenge Corporation funding.

Indicators Overstate
Expected Results
MCC’s Health Sector Project indicators and the projected number of project beneficiaries
overstate the direct results of the project. MCC’s project is providing health center
renovation, including improvements such as water, power, equipment, and training of
staff. These activities are meant to provide a sustainable platform for the delivery of
antiretroviral therapy and other essential health services. Although MCC is not directly
providing antiretroviral therapy, essential health services, or drugs, the results of these
activities are included in MCC’s indicators. For example:

   •   The project impact indicators include the number of individuals still alive and on
       antiretroviral therapy 12 months after initiating treatment. However, MCC is not
       providing antiretroviral therapy or case management to patients, only the facility
       in which case management may occur and antiretroviral therapy may be
       distributed. As a result, this indicator is indirectly related to MCC’s project.

   •   One indicator measures the portion of health centers with access to a three-bin
       medical waste disposal system. The bins are not being provided by MCC, but
       were part of a World Bank project. The World Bank introduced the system to
       help health practitioners manage medical waste in their facilities. The MCC
       indicator has a baseline of 0 percent, and the target is 100 percent. However,
       according to the MCC contractor for the medical waste project activity, the three-
       bin system is already in place at the health centers. The results measured by
       this indicator could be misleading. The results do not acknowledge that the 2006
       World Bank project provided the three-bin system to the health centers.

MCC also has an indicator that overstates the expected number of project beneficiaries.
MCC expects the Health Sector Project to improve the health status of the entire
Basotho people countrywide; however, the Health Center Rationalization Study showed
that only about a quarter of the population uses the health centers. According to the
study, health centers cover an average of 28 percent of the population, with the
remaining people using alternative providers such as traditional healers, village health
posts, or hospitals. In addition, other donors operate health centers in the country and
provide services to the Basotho, so MCC alone is not improving the health of all of the
people.

MCC’s Policy for Monitoring and Evaluation of Compacts and Threshold Programs
states that indicators should be direct, unambiguous, adequate, practical, and useful.
Indicators should measure as closely as possible the result they are intended to
measure. Indicators should also be useful for oversight of the compact.

Another source of guidance on direct indicators is the U.S. President’s Emergency Plan
for AIDS Relief (PEPFAR). PEPFAR guidelines recognize the comprehensive efforts of
other donors and distinguish them by reporting direct and indirect indicators. According


                                                                                        11
to PEPFAR guidelines, direct indicators measure the number of individuals receiving
prevention, care, or treatment through service delivery providers directly supported by a
U.S. Government project at the point of service delivery. Indirect indicators estimate the
number of individuals served as a result of the U.S. Government’s contribution to system
strengthening beyond those counted as receiving direct U.S. Government support.

Regarding MCC investments in public services, MCC Guidelines for Economic and
Beneficiary Analysis states that an analysis should begin by showing data reflecting the
composition of existing users of this infrastructure. The beneficiary analysis should
show whether the poor are more or less likely to use newly built, expanded, or upgraded
infrastructure.

The MCC Health Sector Project program logic 12 uses inputs from other donors in its
results without giving proper attribution. The program logic includes under MCC’s
outputs (1) infrastructure equipped with water and power and (2) trained health care
workers. It also includes the provision of vaccinations in the Health Sector Project
results.

In addition, MCC did not adequately perform a beneficiary analysis of the Health Sector
Project. MCC guidance on conducting a beneficiary analysis stated that the analysis
should show data on existing users and document forecasting techniques used to derive
the number of new users. However, MCC’s analysis incorrectly assumed the entire
population of Lesotho would be affected by MCC’s project.

In followup discussions with MCC, MCC indicated that it had reduced the number of
expected beneficiaries from 1.8 million to 752,000. MCC changed its beneficiary policy
to estimate more conservatively the number of people who experience better standards
of living as a result of the project through higher real incomes. MCC made these
changes in its amended Monitoring and Evaluation Plan for Lesotho, May 2010.

Although the number of beneficiaries has been reduced, the intended results from the
performance indicators are still overstated. The results inaccurately depict the project’s
impact and may result in criticism of MCC. To address this deficiency, this audit makes
the following recommendation:

     Recommendation 9. We recommend that Millennium Challenge Corporation
     revise its Health Sector Project monitoring and evaluation plan to properly
     attribute the comprehensive efforts being provided by other donors.




12
  MCC’s monitoring and evaluation methodology uses program logic to show how each project
activity’s outputs lead to the expected outcomes, objectives, and goal of the compact.


                                                                                       12
Contractor for Health System
Strengthening Was Underperforming

MCC-Lesotho and MCA-Lesotho have raised concerns about the performance of the
contractor responsible for building human resource capacity and decentralizing the
Health Management Information System. MCA-Lesotho critiqued the inception report,
the contractor’s first deliverable, and found it very thin on the consultative process and
lacking in clarity on the contractor’s approach regarding the human resources and
decentralization activities. According to MCA-Lesotho, the quality assurance plan was
highly inadequate, did not address all the requirements, and fell short of international
standards.

According to the contract between MCA-Lesotho and the contractor, the inception report
should contain a situational analysis, among other required deliverables acceptable to
the MCA.

The inadequate work occurred because the activities in the health system strengthening
component are too disparate and the contractor did not have a clear strategy for
achieving these activities. The contractor is responsible for strengthening District Health
Management Teams, decentralizing the health management information system,
strengthening human resource capacity, and strengthening the capacity of a research
unit at the Ministry of Health and Social Welfare.

The experience of other donors in Lesotho has shown that repairing infrastructure alone
is not sufficient to improve the health care system. For example, another donor’s
infrastructure investments in health facilities have shown poor impact. According to the
donor’s staff, after these facilities were renovated, utilization rates did not increase
because staff and drugs were not in place. Consequently, if decentralization is not well
managed, health service delivery could be disrupted, and the benefits of the Health
Sector Project will not be fully realized. Improvements in infrastructure alone will not
guarantee demand and quality health services. The success of the Health Sector
Project depends heavily on the health system strengthening activity. To address these
deficiencies, this audit makes the following recommendation:

   Recommendation 10. We recommend that the Millennium Challenge
   Corporation review its strategy for health systems strengthening, determine and
   document whether it will achieve its intended purpose, and take appropriate
   action and document its rationale if it will not.

MCC Did Not Adequately Apprise
Stakeholders of Project Status
Stakeholders reported instances of poor communication during the design and
implementation of the Health Sector Project. For the most part, the donors had been
contacted by and worked with MCC during the initial design phases of the project.
However, donors and stakeholders were not kept current on health sector
implementation activities. Stakeholders expressed the following concerns regarding
communications from MCC:




                                                                                        13
   •   No explanation was given of the MCC methodology for excluding certain health
       facilities from the Health Sector Project.

   •   Communications were better when MCC had an outreach coordinator.

   •   Confusion occurred as to which organization to approach—MCC-Lesotho or
       MCA-Lesotho.

   •   MCC made undelivered promises on the health center renovations and did not
       communicate why it could not fulfill its promises.

MCC’s Guidelines for Donor Coordination requires that coordination should occur to the
extent possible to help ensure the most effective use of MCA grants. MCC cites the
importance of donor coordination because consulting with other donors provides
feedback on country proposals, reduces the cost of programs by avoiding duplication,
creates synergies, and avoids approaches that have been unsuccessful in the past. It
also facilitates cofinancing, common or supportive programs, and use of joint structures;
and informs other donors of MCC approaches and methods of operation. Specifically,
the guidelines stress MCA’s responsibility for maintaining active donor coordination
throughout the implementation of the compact. MCC also plays a role during compact
development and implementation.

MCA-Lesotho explained that the underperformance of its outreach official resulted in the
inadequate and untimely sharing of information with other donors and stakeholders. It
also explained that a Ministry of Health and Social Welfare communications official
visited the health centers without the accompaniment of MCA-Lesotho infrastructure
personnel to ensure the accuracy of the information being presented.

Donor confusion and disappointment have occurred as a result of not managing
expectations and information on the design and implementation of the Health Sector
Project. MCC and MCA-Lesotho are missing a valuable opportunity to showcase the
project and the generosity of the American people in helping improve the lives of the
people of Lesotho.

During its site visit, the OIG audit team discussed the communications issue with MCA-
Lesotho. MCA-Lesotho explained actions it had taken or planned to take, including
hiring a new communications official and developing and implementing a
communications strategy. Nevertheless, to address this deficiency, this audit makes the
following recommendation:

   Recommendation 11.           We recommend that the Millennium Challenge
   Corporation require that the Millennium Challenge Account-Lesotho develop a
   comprehensive, documented communications strategy to increase the
   transparency of its project activities and provide adequate and timely information
   to other donors and stakeholders for use in coordinating efforts.




                                                                                        14
EVALUATION OF
MANAGEMENT COMMENTS
The Millennium Challenge Corporation (MCC) provided written comments on our draft
report that are included in their entirety in appendix II of this report. In its comments,
MCC agreed with nine recommendations, agreed in part with one recommendation, and
disagreed with one recommendation.
MCC agreed with Recommendation 1 and reviewed the nine health centers that Medical
Care Development International recommended for decommissioning to determine
whether their continued inclusion in the Health Sector Project was justified. MCC found
that there was appropriate and sufficient substantiation for the continued inclusion of
each of the nine health centers in the project. MCC’s findings were based on the
Ministry of Health and Social Welfare determination that the nine facilities warranted
continued operation based on redistricting of health services to align with administrative
decentralization of 2004, and increased health center utilization as a result of expanded
programs on HIV prevention and treatment and tuberculosis control. On the basis of its
actions to review the health centers and to justify continued inclusion of the nine health
centers in the Health Sector Project, OIG considers that a management decision has
been reached and that final action has been taken.

MCC agreed with Recommendation 2 and reviewed the Medical Care Development
International report that identified 20 health centers that did not meet the criteria for
retaining them as ongoing health centers, though the study did not recommend
decommissioning them. MCC found that the health centers were determined not to have
extensive overlapping coverage, and therefore were recommended for retention. In
addition, MCC found that utilization rates for all health centers have expanded rapidly
over the past few years, reflecting the Government’s commitment to free essential health
care, thus supporting the inclusion of these health centers in MCC’s Health Sector
Project. On the basis of its actions to review the 20 health centers to justify their
continued inclusion in the MCC Health Sector Project, OIG considers that a
management decision has been reached and that final action has been taken.

MCC agreed with Recommendation 3, to determine whether the District Health
Management Teams will be functional upon health center completion to manage the risk
to sustainability. MCC provided examples of its efforts to ensure functionality of the
District Health Management Teams, including a capacity building contract as part of the
Health Sector Project, participation in a donor working group, and a planned formal MCC
review in September 2011 of the decentralization efforts. On the basis of its actions to
manage the risk to sustainability, OIG considers that a management decision has been
reached. However, final action will not take place until MCC provides the results of its
September 2011 review to OIG.

MCC disagreed with Recommendation 4, to develop a policy requiring conditions
precedent focusing on outcomes, where appropriate, rather than prescribing specific
activities. MCC explained that it uses various types of conditions precedent, including
outcome conditions precedent. OIG’s concern is that, absent a policy, a process would
not be in place to encourage the use of outcome conditions precedent. Continued risk


                                                                                       15
exists that a prescriptive conditions precedent may not achieve the desired outcome.
Nevertheless, MCC asserted that the conditions precedent in place for the Lesotho
Health Sector Project provide pragmatic steps and processes to ensure that the
Government of Lesotho moves forward successfully. Thus, OIG considers that a
management decision has been reached and that final action has been taken.

MCC agreed with Recommendation 5, to review the Government of Lesotho annual
budget to ensure that sufficient funds are allocated to cover the cost of the health center
renovations. MCC stated that it has in place procedures for estimating costs, reviewing
the Government’s budgets, and documenting funds to ensure the availability of proposed
commitments for health infrastructure. OIG considers that a management decision has
been reached. However, final action will not take place until MCC provides evidence of
its reviews on the sufficiency of Government funds.

MCC agreed with Recommendation 6, to develop and implement a strategy to
coordinate oversight during renovation of all health centers in the project. MCC has
already started to implement a detailed MCC/MCA-Lesotho Infrastructure Oversight and
Monitoring Plan. The plan delineates roles for quality assurance, communication
protocols, document controls, resource requirements, regular and unannounced site visit
schedules to monitor construction, and environmental, social, and safety risks and
mitigants. Staffing gaps were identified at MCA-Lesotho, the supervising engineer, and
MCC-Lesotho, and are being addressed. OIG considers that a management decision
has been reached. However, final action will not take place until MCC provides
documentation on its infrastructure oversight and monitoring plan and hiring of staff to
address the staffing gaps.

MCC agreed with Recommendation 7, to review health center compliance with the
memorandum of understanding on the provision of essential health services. MCC
found that the Ministry of Health and Social Welfare is successfully revitalizing
community-based and private sector-based distribution of family planning services even
though some Christian Health Association of Lesotho centers do not provide these
services. The Ministry of Health and Social Welfare deemed that the Christian Health
Association of Lesotho provides an adequate minimum set of services for retention as
required by the memorandum of understanding between the two organizations. As part
of its oversight process, MCC will review facility-based surveys to assess the services
delivered by health centers. OIG considers that a management decision has been
reached. However, final action will not take place until MCC provides evidence that the
Ministry of Health and Social Welfare has successfully revitalized community-based and
private sector-based distribution of family planning services.

MCC agreed in part with Recommendation 8, to review the role of the private sector
providers in compact implementation, but did not agree to establish a written policy for
compliance with service delivery requirements to receive MCC funding. MCC reviewed
the role of the private sector in providing health services. In its response, MCC stated
that the service delivery requirements are elaborated in the memorandum of
understanding between the Government of Lesotho and the private sector health care
providers, and MCC has no direct agreements with the private sector under the Health
Sector Project. OIG’s concern was that MCC funding is being provided to health care
providers that do not provide all essential health services, including family planning and
condom distribution. However, MCC found that the Ministry of Health and Social
Services is successfully revitalizing community-based and private sector-based


                                                                                        16
distribution of family planning to fill the gap in essential services. Although MCC did not
fully agree with the OIG’s recommendation, OIG believes that management decision has
been reached because its concern over the availability of essential health services has
been addressed in an alternative manner; that is, others are filling the gap in essential
health services. OIG considers that final action has been taken.

MCC agreed with Recommendation 9, to properly attribute the efforts of other donors in
the health sector. MCC responded that attribution of its efforts and those of other donors
in the health sector will be determined through the MCC impact evaluation, which is
required as part of the monitoring and evaluation plan. OIG considers that a
management decision has been reached and that final action has been taken.

MCC agreed with Recommendation 10, to review its strategy for health systems
strengthening and determine and document whether it will achieve its intended purpose.
MCC reviewed and mitigated the risks with this contract and the contractor is back on
track and performing well and on time. MCC believes that the contract outputs also will
be met and that the health systems strengthening activity will meet its intended purpose.
OIG considers that a management decision has been made and that final action has
been taken.

MCC agreed with Recommendation 11, to develop a communications strategy to
increase the transparency of project activities and to provide adequate and timely
information to other donors and stakeholders.          MCA-Lesotho restructured and
strengthened its Outreach Department and established and implemented a
comprehensive multimedia communications and outreach strategy with the Ministry of
Health and Social Welfare. OIG considers that a management decision has been made.
However, final action will not be achieved until MCA-Lesotho provides documentation on
its communications strategy.




                                                                                        17
                                                                             APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Office of Inspector General conducted this audit of the Millennium Challenge
Corporation’s (MCC) Health Sector Project in accordance with generally accepted
government auditing standards. These standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.

We conducted an audit of the Health Sector Project in Lesotho because it was MCC’s
first large-scale health sector project and is important to improving the health and
economic well-being of the Basotho. We audited all seven project activities carried out
under the $122 million Health Sector Project. We conducted our fieldwork from April 8 to
July 12, 2010, at MCC headquarters in Washington, DC, making a site visit to the
Millennium Challenge Account (MCA)-Lesotho in Maseru from April 26 to May 14, 2010.

We interviewed officials in MCC’s headquarters and at MCA-Lesotho, contractors,
implementing entities, and other donors to draw their conclusions about the Health
Sector Project. We also obtained and analyzed MCC documentation supporting MCC’s
due diligence process and the conclusions reached. In addition, we analyzed various
aspects of the project, including duplication of services with other donors, attribution of
the project’s impact to MCC, plans for sustainability, and compliance with MCC
guidelines, including those for donor coordination and environmental and social
assessment. We conducted these analyses to identify any inefficiencies in the structure
of the project and to determine whether the project will continue to provide value over
time. We also conducted site visits to five health centers—Domiciliary, Lesotho Defence
Force, St. Leo, Thaba Bosiu, and Pilot—and one outpatient department (Berea), and
interviewed health care professionals to further our understanding of the challenges
facing MCC and to obtain baselines for the project activities.

We examined the internal control environment by identifying and assessing the relevant
controls. Controls we tested included supporting documentation for the due diligence
process and supervisory controls surrounding the renovation activities.

Methodology
To answer the audit objective, we established audit steps to determine whether the
Health Sector Project was structured to increase access to antiretroviral therapy and
essential health services by providing a sustainable delivery platform.

Specifically, we performed the following activities:

   •   Interviewed MCC and MCA-Lesotho officials to gain an understanding of the
       status of each of the seven Health Sector Project activities and challenges to
       their successful completion.



                                                                                        18
•   Interviewed other donors to gain an understanding of their programs and to
    identify any duplication or gaps or concerns with MCC’s Health Sector Project.

•   Reviewed MCC documents supporting the structuring of the project and its
    implementation, including the compact, due diligence documents, the monitoring
    and evaluation plan, and contracts.

•   Judgmentally selected health centers and an outpatient department for our site
    visits.

•   Reviewed documents and interviewed officials to analyze the structuring of the
    project in terms of duplications or gaps, sequencing, timing, accessibility,
    prioritization, and sustainability.




                                                                                     19
                                                                                       Appendix II


MANAGEMENT COMMENTS



DATE:           January 4, 2011

TO:             Mr. Alvin Brown, Assistant Inspector General
                Millennium Challenge Corporation

FROM:           Mr. Patrick C. Fine, Vice President - Department of Compact Operations /s/
                Millennium Challenge Corporation

Dear Mr. Brown:

The Millennium Challenge Corporation (MCC) appreciates the opportunity to respond to the
Office of Inspector General’s (OIG) draft report entitled “Audit of the Millennium Challenge
Corporation’s Health Sector Project in Lesotho.”

MCC’s specific responses to the eleven recommendations in the draft report are detailed below.

Recommendation No. 1: Eliminate from the project the nine health centers recommended for
decommissioning during due diligence totaling an estimated $8 million unless MCC can
substantiate their continued inclusion in the project.

MCC Response: MCC agrees with this recommendation and provides the following
substantiation for inclusion of the nine health centers in the Compact. MCC reviewed the original
decision to include the nine facilities and found that fifteen facilities were recommended for
decommissioning in the Irish Aid funded 2002 Health Center Rationalization Study. Irish Aid’s
recommendation was based on mapping clients to facilities using geographical distances. The
Ministry of Health and Social Welfare (MOHSW) determined that nine of these facilities
warranted continued operation based on redistricting of health services to align with the
administrative decentralization in 2004, and increased utilization as a result of expanded
programs on HIV prevention and treatment and TB control supported by PEPFAR and Global
Fund (GFATM). Eight of these were included as priorities for expansion in the original proposal
from the MOHSW to MCC, and were visited and assessed in 2006. A ninth facility, Good
Shepherd, continues to receive operational support from the MOHSW due to the convenient
services it provides to a large catchment population, including special HIV, Prevention of
Mother-to-Child Transmission (PMTCT) and health and educational services for young mothers
(unwed girls who became pregnant during schooling).

In 2007, the MCC conducted due diligence which included a review of the MOHSW proposal
and associated data, visits to three of the eight facilities included in the MOHSW request for
enlargement, and the Good Shepherd Health Center. The review recommended that two of the
facilities be enlarged based on current facility size that serve more than 75 clients per day, given



                                                                                                 20
Mr. Alvin Brown
January 4, 2011
Page 2

the nationwide rollout of expanded HIV and TB services. The review also recommended that the
remaining facilities be renovated to attain minimal standards.

All proposed facilities were visited and assessed by the Millennium Challenge Account-Lesotho
(MCA-L) between March and June 2009. MCC agreed to include these nine health centers in the
MCC funded project based on four factors: (i) the MOHSW decision to maintain services at
these facilities, (ii) 2006 MOHSW consultant assessment, (iii) 2007 MCC due diligence
assessment, and (iv) MCA-L 2009 assessment of the facilities. Of the nine facilities, six will be
renovated under MCC funding, and three will be funded by the GOL. Five of the six MCC
funded facilities have been randomly selected as control or treatment facilities under the project’s
impact evaluation design.

Utilization rates gathered by MCA-L for the nine facilities are provided below.

Center               Patients per day   Renovation                             Comments
                                        funder/contract
Thaba Bosiu          50                 MCC/Lot 1 –          Renovate
                                        Control
St. Leonard          70 – 90            MCC/Lot 2            Renovate. St. Leonard overlaps Semonkong
                                                             HC catchment area. Semonkong HC is not
                                                             included in the project.
St. Magdalena        100                MCC/Lot 1 –          Renovate
                                        Control
Pontmain             70                 MCC/Lot 1 –          Renovate
                                        Control
Mahobong Clinic      100                GOL/Lot 3            Expand based on current facility size and
                                                             more than 75 patients per day
Peka                 100+               MCC/Lot 1 –          Relocate and expand based on current facility
                                        Treatment            size and more than
                                                             75 patients per day
St. Monicas          60                 MCC/Lot 1 –          Renovate
                                        Control
Holy Family          80                 GOL/Lot 4            Renovate
Good Shepherd        150                GOL/Lot 4            Renovate.      General clinic and special
                                                             services facility catering to young mothers
                                                             (PMTCT, ANC, ART).

Based on the aforementioned review, MCC finds that there is appropriate and sufficient
substantiation for the inclusion of the nine health centers in the project. The remaining six
centers identified by Irish Aid have not been included.

Recommendation No. 2: Determine whether to renovate 20 health centers that did not meet
the Health Center Rationalization Study’s retention criteria, and document the analysis and
the decision.




                                                                                                 21
Mr. Alvin Brown
January 4, 2011
Page 3

MCC Response: MCC agrees with this recommendation. MCC reviewed the source documents
and the min-max algorithm used to assess clinics in the 2002 Irish Aid financed Health Center
Rationalization Study. The algorithm was designed to identify clinics that were outliers for
coverage – where they either provided redundant coverage or were in areas with no other
coverage. The twenty health centers were determined not to have extensive overlapping coverage,
and therefore were recommended for retention. These clinics were not identified by name in the
report, and we have been able to specifically identify only a few of them based on the available
evidence. All clinics in the Health Sector Project have been visited and reviewed by MCA-L
(March – June 2009) and confirmed by the MOHSW. In addition, utilization rates have expanded
rapidly in the past few years at all clinics, reflecting the Government’s commitment to free
provision of essential health services at both GoL and Christian Health Alliance health centers.
This expanded usage is evident in the improved health statistics, including the 52 percent (2009)
of persons living with AIDS currently receiving antiretroviral drug therapy (ART).

Recommendation No. 3: Determine whether the District Health Management Teams will be
functional upon health center completion; document the assessment; and implement additional
mitigation measures, if necessary, to manage the risk to sustainability.

MCC Response: MCC agrees with the need for this determination. To manage the sustainability
risk, the Compact currently supports capacity building of District Health Management Teams
(DHMTs) through the Health Systems Strengthening contract. In addition, MCC supports other
health donor funded activities in this area, including close collaboration and support of the US
PEPFAR AID support of capacity building of DHMTs. MCC participates in a joint donor
working group, quarterly oversight of accomplishments, and a joint annual review of the health
sector, including decentralization indicators. As a result, the MOHSW is decentralizing the first
three of ten essential services from April 2011. MCC will formally review these efforts again in
September 2011 and determine if additional measures are needed to reduce sustainability risks.

Recommendation No. 4: Develop a policy requiring conditions precedent to focus on outcomes,
where appropriate, rather than prescribing specific activities.

MCC Response: MCC agrees with the importance of establishing appropriate conditions
precedent specified to achieve program outcomes and objectives. MCC, in developing a
Compact, utilizes various types of conditions precedent for multiple uses based on specific need,
including but not limited to enforcing compliance on process milestones and demonstrating
progress on outcomes. Therefore, MCC appreciates the importance of outcome conditions
precedent as one tool in ensuring program and policy reforms.

With respect to the Lesotho health project, the conditions precedent were specifically designed to
mitigate the risk that the GoL would not provide sufficient oversight to health services, given
changes in governance expected outside of the health sector, as a result of the 1997
decentralization law. The associated conditions precedent provide pragmatic steps and processes
to ensure that the GoL is successfully moving forward on resolving governance issues.




                                                                                               22
Mr. Alvin Brown
January 4, 2011
Page 4


Recommendation No. 5: Ensure that the Government of Lesotho allocates sufficient amounts
in their annual budget to cover the cost of the health center renovations and documents its
review.

MCC Response: MCC agrees with this recommendation. MCC and MCA-L have in place
procedures for estimating costs, reviewing GoL budgets, and documenting funds to ensure
availability of GoL’s proposed commitments for health infrastructure. This includes input to
ministry budget planning, review of the annual government budget approved by Parliament in
April of each fiscal year, and yearly review by an MCC hired external consultant of the MOHSW
annual budget and recurrent costs.

Recommendation No. 6: Develop and implement a strategy to coordinate oversight during
renovation of all health centers in the project.

MCC Response: MCC agrees with this recommendation and has already started to implement a
detailed MCC/MCA-L Infrastructure Oversight and Monitoring Plan developed in collaboration
with MCA-L. This plan clearly delineates respective roles in program quality assurance and
quality control monitoring and oversight of stakeholders including, MCA-L works contractors,
the MCA-L supervising engineer (PMCS), MCA-L infrastructure staff, MCC Resident Country
Mission (RCM), MCC DC staff and the MCC Independent Engineer. The plan also defines
communication protocols, information sharing protocols, quality control/quality assurance,
document controls, resource requirements, and regular and unannounced site visit schedules to
continually monitor construction, environmental, social and safety risks and mitigants.
Implementation of this plan has led to identification of staffing gaps in the MCA-L, the PMCS
and the MCC RCM which are currently being addressed. MCA-L has identified the need to hire
an additional 4 junior level infrastructure staff, as well as an additional environmental, safety and
social specialist to assist with monitoring. Likewise, MCA-L has required the PMCS to increase
Human Resources to address its capacity to appropriately monitor all health infrastructure
contracts. Finally, the MCC RCM has hired an additional engineer to strengthen its oversight
capacity.

Recommendation No. 7: Review health center policies and practices to determine whether they
comply with the memorandum of understanding establishing that health center must provide
all essential health services, and document its review. If health centers are not complying,
MCC needs to take appropriate action and document its rationale.

MCC Response: MCC agrees with this recommendation. The memorandum of understanding
(MOU) requires the MOHSW to deliver a minimum package of services at primary care facilities.
MCC has reviewed the issue and accepts the MOHSW position on family planning services. The
MOHSW negotiates individually with facilities that choose not to provide family planning
services and is attempting to ensure that family planning services are provided at alternate sites.
The MOHSW is successfully revitalizing community based and private sector based distribution
of family planning services despite some Christian Health Association of Lesotho (CHAL)
centers not providing these services. The CHAL clinics do provide other critical health


                                                                                                  23
Mr. Alvin Brown
January 4, 2011
Page 5

services, including pre and post natal care, newborn care, delivery and PMTCT.
Therefore, the MOHSW deems that these facilities provide an adequate “minimum” set of
services for retention in the MOHSW-CHAL MOU. As part of MCC oversight process, it will
review the 2010 facility-based survey and following surveys carried out in collaboration with
MOHSW and the Bureau of Statistics (BOS) as part of the MCA-L M&E Plan as stipulated in the
Implementing Entity Agreements with MOHSW and BOS. These surveys will provide an
assessment of services delivered by health centers, among other data, on a regular basis.

Recommendation No. 8: Review and document the role of the private sector providers in
compact implementation and establish a written policy for compliance with service delivery
requirements to receive MCC funding.

MCC Response: MCC agrees with this recommendation and under the Lesotho Health Sector
Project, the MOHSW has established a service based agreement with each CHAL institution and
the Lesotho Red Cross/Red Crescent Society, which requires compliance with the free provision
of minimal essential services. As noted under recommendation 7, above, CHAL facilities are able
to opt out of family planning services on a case by case basis but can still be deemed to meet the
minimum requirements. MOHSW ensures compliance through documented routine accreditation
surveys. Facilities not providing minimum set of requirements, including child health, antenatal,
and HIV services, are subject to additional oversight, management intervention and/or loss of
funding from the MOHSW. To date, provision of public financing has been a strong incentive to
adoption of consistent service standards across CHAL and MOHSW facilities. Based on its
structuring of the Compact, MCC has no direct agreements with the private sector under the
Health Sector Project. Compliance with service delivery requirements is elaborated within the
aforementioned service based agreements.

Recommendation No. 9: Revise its Health Sector Project monitoring and evaluation plan to
properly attribute the comprehensive efforts being provided by other donors.

MCC Response: MCC agrees with this recommendation and already has plans, built on
international best practice, to evaluate the impacts of the MCC activities. A rigorous impact
evaluation, based on randomized case-control methodologies, has been developed and will be
conducted by independent third party evaluators as specified in the impact evaluation section of
the project’s M&E plan. Separate attribution of MCC efforts will be determined through this
impact evaluation.

Recommendation No. 10: Review its strategy for health systems strengthening and determine
and document whether it will achieve its intended purpose. If not, MCC needs to take
appropriate action.

MCC Response: MCC agrees with this recommendation. Contract management has been
improved by MCA-L, MOHSW and the contracted firm. The health systems strengthening (HSS)
contractor is back on track, currently performing well and on time, and contract outputs are
expected to be met. MCA-L has analyzed and mitigated risks identified with this contract at the
time of the June 2010 OIG field visit. Concerted efforts by MCC, MCA-L, MOHSW and the
HSS contractor have led to improved strategic plans and input quality for the three key areas of
health systems strengthening (decentralization, human resources, and health information


                                                                                               24
Mr. Alvin Brown
January 4, 2011
Page 6

services). Revitalization of multi-donor working groups in all three areas has improved
coordination and responsibilities for outcomes. Currently, based on this review and these recent
positive indications, MCC believes that its strategy for health systems strengthening will meet its
intended purpose. Contractor performance is reviewed annually at the 2011 Annual Joint Review
by all health development partners.

Recommendation No. 11: Verify that MCA-L develops a comprehensive, documented
communications strategy to increase the transparency of its project activities and provide
adequate and timely information to other donors and stakeholders for use in coordinating
efforts.

MCC Response: MCC agrees with this recommendation. With support from MCC, in 2009
MCA-L restructured and significantly strengthened its Outreach Department. As a result, MCA-L
has established and implemented a comprehensive multi-media communications and outreach
strategy with MOHSW to ensure transparency of information regarding the health activities in the
Compact. These include quarterly publications of progress and news reports, participation in town
and community outreach activities across all 10 districts, regular radio messaging, TV messaging,
public ground-breaking ceremonies and participation in MOHSW technical working groups with
MOHSW and other health partners. Likewise, the MCC RCM participates in regular donor
meetings and technical working groups to assure information sharing within the donor
community and to assure coordination of strategic planning with the MOHSW.

Thank you for the opportunity to provide our comments on the draft report.




                                                                                                25
U.S. Agency for International Development
        Office of Inspector General
for the Millennium Challenge Corporation
       1401 H Street, NW, Suite 770
          Washington, DC 20005
            Tel: (202) 216-6960
            Fax: (202) 216-6984
            www.usaid.gov/oig
